Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




  SOUTH FLORIDA MEDICARE
 COMPREHENSIVE OUTPATIENT
  REHABILITATION FACILITIES




                    Daniel R. Levinson
                     Inspector General

                     November 2011
                     OEI-05-10-00090
   E X E C U T I V E                                      S U M M A R Y


                  OBJECTIVES
                  1. To determine whether Comprehensive Outpatient Rehabilitation
                     Facilities (CORF) in South Florida were operational (i.e., at the
                     location on file with the Centers for Medicare & Medicaid Services
                     (CMS) and open during business hours).
                  2. To describe CMS actions against CORFs that were not operational.


                  BACKGROUND
                  CORFs provide multidisciplinary outpatient rehabilitation services at a
                  single location. Medicare allowed approximately $70 million for almost
                  40,000 beneficiaries nationwide who received CORF services in 2010.
                  Of this amount, more than $22 million was for claims by South Florida
                  CORFs. In 2010, more than 25 percent of all CORFs were in South
                  Florida.
                  Previous work has demonstrated that CORFs in South Florida may be
                  vulnerable to fraud, waste, and abuse. For example, the Office of
                  Inspector General estimated that in 2003, three South Florida CORFs
                  received between $720,000 and $1.6 million each in inappropriate
                  payments for services. A 2004 report by the Government
                  Accountability Office found that per-beneficiary payments to CORFs in
                  South Florida were two to three times higher than per-beneficiary
                  payments to other outpatient therapy providers.
                  To determine whether CORFs in South Florida were at the location on
                  file with CMS and were open during business hours, we conducted
                  unannounced site visits to all South Florida CORFs. We also
                  determined the amount that Medicare allowed for claims from
                  nonoperational CORFs and reviewed documentation about CMS actions
                  against nonoperational CORFs.


                  FINDINGS
                  Eighteen of the one hundred one South Florida CORFs were not
                  operational. Ten CORFs were not at the location on file with CMS.
                  Eight CORFs were not open during business hours. Medicare allowed
                  $2.2 million for services provided by these CORFs in 2010.




OEI-05-10-00090   S O U T H F L O R I D A M E D I C A R E C O M P R E H E N S I V E O U T PAT I E N T R E H A B I L I TAT I O N FA C I L I T I E S   i
E   X   E C     U T   I     V       E           S       U M            M       A      R Y


                          CMS took action against most of the nonoperational CORFs based
                          on a special enrollment project and routine oversight. CMS took
                          action against 16 of the 18 nonoperational CORFs in the months after
                          we completed our site visits. A special enrollment project resulted in
                          10 actions against nonoperational CORFs, and routine oversight
                          resulted in 6 such actions.


                          RECOMMENDATIONS
                          Periodically conduct unannounced site visits to CORFs. Continuing
                          to periodically conduct nationwide unannounced site visits would enable
                          CMS to identify and remove nonoperational CORFs from the program
                          and potentially reduce erroneous Medicare payments. CMS could focus
                          unannounced site visits in high-risk areas or base them on fraud-risk
                          assessments.
                          Use additional program safeguards for CORFs. CMS should use other
                          program safeguards to prevent potentially nonoperational CORFs from
                          enrolling in the Medicare program and to monitor existing CORFs. Other
                          safeguards may include a moratorium on the enrollment of new CORFs
                          and payment suspensions.


                          AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                          RESPONSE
                          CMS concurred with our recommendations. CMS stated that it
                          currently conducts unannounced enrollment and revalidation site visits
                          to CORFs and that it plans to increase the frequency of unannounced,
                          out-of-cycle site visits to CORFs. CMS also stated that it will continue
                          to take administrative actions, as appropriate. CMS stated that these
                          actions may include, but are not limited to, prepayment review, auto-
                          deny edits, payment suspensions, and revocations. We did not make
                          any changes to the report based on CMS’s comments.




    OEI-05-10-00090       S O U T H F L O R I D A M E D I C A R E C O M P R E H E N S I V E O U T PAT I E N T R E H A B I L I TAT I O N FA C I L I T I E S   ii
   T A B L E          O F            C O N T E N T S



         EXECUTIVE SUMMARY .....................................i



         INTRODUCTION ............................................ 1



         FINDINGS .................................................. 8
                    Eighteen of the one hundred one South Florida CORFs were
                    not operational . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

                    CMS took action against most of the nonoperational CORFs
                    based on a special enrollment project and routine oversight. . . . . . 9


         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
                    Agency Comments and Office of Inspector General Response . . . 12




         A P P E N D I X . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
                    A: Detailed Methodology. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

                    B: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17




         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
   I N T R O D U C T I O N


                  OBJECTIVES
                  1. To determine whether Comprehensive Outpatient Rehabilitation
                     Facilities (CORF) in South Florida were operational (i.e., at the
                     location on file with the Centers for Medicare & Medicaid Services
                     (CMS) and open during business hours).
                  2. To describe CMS actions against CORFs that were not operational.


                  BACKGROUND
                  CORFs provide multidisciplinary outpatient rehabilitation services at a
                  single location. Medicare allowed approximately $70 million for almost
                  40,000 beneficiaries nationwide who received CORF services in 2010.
                  Of this amount, more than $22 million was for claims by South Florida
                  CORFs.
                  CORFs are disproportionately concentrated in South Florida. Over
                  one-fourth of the 303 CORFs that billed Medicare in 2010 were located
                  in South Florida.
                  Vulnerabilities with CORFs in South Florida
                  Previous work has demonstrated that CORFs in South Florida may be
                  vulnerable to fraud, waste, and abuse. The Office of Inspector General
                  (OIG) estimated that in 2003, three South Florida CORFs received
                  between $720,000 and $1.6 million each in inappropriate payments for
                  services.1, 2, 3 A 2004 report by the Government Accountability Office
                  (GAO) identified aberrant billing patterns among South Florida CORFs.
                  GAO found that per-beneficiary payments to CORFs in South Florida
                  were two to three times higher than per-beneficiary payments to other
                  outpatient therapy providers. 4
                  In May 2009, the Health Care Fraud Prevention and Enforcement
                  Action Team (HEAT) initiative was launched in Miami to increase
                  efforts to reduce Medicare fraud. A collaboration between officials from


                    1 OIG, Review of Comprehensive Outpatient Rehabilitation Facility Therapy Services

                  Provided by Ultimate Rehabilitation Agency, Inc., A-04-05-02009, September 2008.
                    2 OIG, Review of Comprehensive Outpatient Rehabilitation Facility Therapy Services

                  Provided by Action Rehabilitation Center, Inc., A-04-05-02010, November 2008.
                    3 OIG, Review of Comprehensive Outpatient Rehabilitation Facility Therapy Services

                  Provided by Care Alliance of America, Inc., A-04-05-02011, November 2009.
                    4 GAO, Comprehensive Outpatient Rehabilitation Facilities: High Medicare Payments in

                  Florida Raise Program Concerns, August 2004.



OEI-05-10-00090   S O U T H F L O R I D A M E D I C A R E C O M P R E H E N S I V E O U T PAT I E N T R E H A B I L I TAT I O N FA C I L I T I E S   1
I   N T    R O        D   U      C T            I    O       N


                              the Department of Health and Human Services and the Department of
                              Justice, the HEAT initiative builds upon existing programs that combat
                              fraud and identifies new methods to prevent fraud.
                              CORF Services
                              CORFs are required to offer the following core services: CORF
                              physician services, physical therapy services, and social and/or
                              psychological services. CORF physician services are administrative and
                              include such tasks as consultation with, and medical supervision of,
                              CORF staff and review of patient treatment plans, as appropriate. 5
                              In addition to offering core services, CORFs may elect to offer
                              occupational therapy, speech-language pathology, respiratory therapy,
                              prosthetic and orthotic devices, supplies and durable medical
                              equipment, and nursing as well as other services.
                              A CORF must maintain a physical location that provides safe and
                              sufficient space for the scope of services offered. 6 Except for a single
                              home environment evaluation visit and except for physical therapy,
                              occupational therapy, and speech-language pathology services, all
                              CORF services must be provided on CORF premises. 7 The majority of
                              physical therapy, occupational therapy, and speech-language pathology
                              services must also be provided on CORF premises for all CORF
                              patients. 8
                              CORF Enrollments
                              To enroll in Medicare, a CORF must submit an application that collects
                              a variety of information, including the address at which the CORF will
                              provide services (i.e., the practice location). 9
                              Before approving a CORF’s enrollment, CMS arranges for an initial site
                              visit. This visit is part of a process called “survey and certification,” in
                              which CMS contracts with State survey agencies to assess the
                              prospective CORF’s compliance with certain Federal regulations. The
                              survey and certification process culminates in a recommendation by the



                                  5 CMS,       Medicare Benefit Policy Manual, Pub. No. 100-02, ch. 12 § 20.1. Accessed at
                              http://www.cms.hhs.gov on May 19, 2011.
                                  6 42 CFR § 485.62(a)(7).
                                  7 42 CFR § 485(e).
                                  8 CMS, Medicare Benefit                     Policy Manual, Pub. No. 100-02, ch. 12 § 30(A). Accessed at
                              http://www.cms.hhs.gov on May 19, 2011.
                                  9 Form CMS-855A. Accessed at http://www.cms.hhs.gov on May 19, 2011.




    OEI-05-10-00090           S O U T H F L O R I D A M E D I C A R E C O M P R E H E N S I V E O U T PAT I E N T R E H A B I L I TAT I O N FA C I L I T I E S   2
I   N T    R O        D   U      C T            I     O      N


                              State survey agency to CMS as to whether the CORF should be accepted
                              into the Medicare program.
                              After being accepted, each CORF must continue to meet the initial
                              enrollment requirements. Each CORF is required to be periodically
                              resurveyed by its State survey agency to ensure continued compliance
                              with all requirements. 10 CMS also requires CORFs to report enrollment
                              application changes, including changes in practice location, within
                              90 days of the changes. 11
                              Postenrollment Site Visits
                              After a CORF is enrolled in the Medicare program, CMS may conduct
                              unannounced site visits.12 CMS cites the use of unannounced
                              postenrollment site visits as a successful way to determine whether
                              providers are operational and are at the location on file with CMS. 13
                              The Medicare Program Integrity Manual provides guidelines regarding
                              unannounced site visits. When conducting a site visit to verify that a
                              provider is operational, CMS should attempt to make its determination
                              using only an external review of the facility. CMS requires that
                              reviewers document visits using written observations of the facilities
                              and photographs, as appropriate.14 Unannounced site visits should take
                              place during posted business hours, or between 9 a.m. and 5 p.m. if no
                              business hours are posted. 15
                              CMS Administrative Actions
                              CMS may take the following administrative actions against
                              nonoperational providers, including CORFs:
                                  ●        Investigation. CMS investigations may include site visits and
                                           interviews with CORF staff and Medicare beneficiaries, as well
                                           as analysis of claims data.


                                  10 42 CFR § 488.20(b)(1).
                                  11 42 CFR § 424.516(e)(2). A change in ownership or control must be reported within 30

                              days. 42 CFR § 424.516(e)(1).
                                  12 CMS,           Medicare Program Integrity Manual Pub. No. 100-08, ch. 15, § 15.20. Accessed
                              at http://www.cms.hhs.gov on May 19, 2011.
                                  13 Preamble to final rule implementing sections of the Patient Protection and Affordable

                              Care Act, as amended by the Health Care and Education Reconciliation Act of 2010.
                              76 Fed. Reg. 5862, 5869 (Feb. 2, 2011).
                                14 CMS, Medicare Program Integrity Manual, Pub. No. 100-08, ch. 15, § 15.20.1.

                              Accessed at http://www.cms.hhs.gov on February 22, 2011.
                                15 CMS, Medicare Program Integrity Manual, Pub. No. 100-08, ch. 15, § 15.20.1

                              Accessed at http://www.cms.hhs.gov on May 19, 2011.



    OEI-05-10-00090           S O U T H F L O R I D A M E D I C A R E C O M P R E H E N S I V E O U T PAT I E N T R E H A B I L I TAT I O N FA C I L I T I E S   3
I   N T    R O        D   U      C T            I    O       N


                                  ●        Prepayment review. CMS reviews documentation from
                                           providers before deciding whether to pay claims.
                                  ●        Payment suspension. CMS temporarily stops some or all
                                           payments to a provider. CMS may suspend payments to a
                                           provider if there is a credible allegation of fraud against that
                                           provider. 16
                                  ●        Revocation. CMS may revoke Medicare billing privileges for a
                                           CORF that is no longer operational.17
                                  ●        Deactivation. CMS may deactivate a provider’s billing
                                           privileges when a CORF has not submitted claims for
                                           12 consecutive months. 18 This reduces the risk that the
                                           provider’s billing privileges will be used for fraudulent purposes.
                              Temporary Moratoria
                              CMS may also reduce the potential for fraud, waste, or abuse among
                              CORFs by imposing a moratorium on CORF enrollment. CMS’s
                              authority to impose moratoria on specific provider types, specific
                              geographic areas, or both was established by the Patient Protection and
                              Affordable Care Act and implemented in 2011. 19
                              South Florida High Risk Enrollment Project
                              Concurrent to our review, CMS conducted a special enrollment project—
                              the South Florida High Risk Provider Enrollment Project—that
                              targeted fraud among specific provider types that are vulnerable to
                              abuse. As part of the project, CMS conducted site visits to all CORFs in
                              South Florida to verify their existence.
                              CMS used the results of these site visits, along with other information,
                              to create a fraud-risk score for each CORF. CORFs with high fraud-risk
                              scores could be subject to a variety of administrative actions. In some

                                 16 CMS, Medicare Program Integrity Manual, Pub. No. 100-08, ch. 8, § 8.3.1.1. Accessed
                              at http://www.cms.hhs.gov on August 16, 2011. See also 42 CFR §§ 405.371(a)(2) and
                              405.372(a)(4).
                                17 CMS, Medicare Program Integrity Manual, Pub. No. 100-08, ch. 15, § 15.27.2(A).

                              Accessed at http://www.cms.hhs.gov on January 31, 2011. See also 42 CFR § 424.535(a)(5).
                                18 CMS, Medicare Program Integrity Manual, Pub. No. 100-08, ch. 15, § 15.27.1.

                              Accessed at http://www.cms.hhs.gov on January 31, 2011. See also 42 CFR § 424.540(a).
                                19 The Patient Protection and Affordable Care Act, P.L. 111-148, § 6401(a)(3) (adding

                              section 1866(j)(6) of the Social Security Act, which was redesignated as section 1866(j)(7) by
                              the Health Care and Education Reconciliation Act of 2010, P.L. 111-152, § 1304).
                              Implementing regulations for moratoria on newly enrolling Medicare providers and
                              suppliers are located at 42 CFR § 424.570.



    OEI-05-10-00090           S O U T H F L O R I D A M E D I C A R E C O M P R E H E N S I V E O U T PAT I E N T R E H A B I L I TAT I O N FA C I L I T I E S   4
I   N T    R O        D   U      C T            I    O       N


                              cases, CMS used evidence from the site visits to take action against
                              CORFs that were not operational.


                              METHODOLOGY
                              We performed unannounced site visits to all CORFs with a practice
                              location in one of three Core Based Statistical Areas (CBSA) in Florida:
                              the Miami–Miami Beach–Kendall CBSA, the Fort Lauderdale–
                              Pompano Beach–Deerfield Beach CBSA, and the West Palm Beach–
                              Boca Raton–Boynton Beach CBSA. We refer to these CBSAs
                              collectively as South Florida. We determined whether these CORFs
                              were operational (i.e., were at the location on file with CMS and were
                              open during business hours). We also reviewed documentation about
                              CMS actions against CORFs that were not operational at the time of
                              our site visits. See Appendix A for a detailed description of our
                              methodology.
                              Scope
                              We focused our review on whether CORFs were operational—that is,
                              whether they were at the locations on file with CMS and were open
                              during business hours. We focused on these criteria to limit our
                              interaction with CORF staff and reduce the risk of alerting staff at
                              potentially fraudulent CORFs to our presence.
                              Data Sources and Data Collection
                              Identifying CORF locations. To identify CORF locations for our
                              South Florida site visits, we first used the 2009 Outpatient National
                              Claims History (NCH) file to identify CORFs that submitted claims in
                              2009 for a practice location in South Florida. We then located addresses
                              for all 132 CORFs through the Provider Enrollment, Chain, and
                              Ownership System (PECOS) and a data request to CMS.
                              Site visits to CORFs. We conducted unannounced site visits to
                              determine whether these CORFs maintained a physical facility at the
                              location on file with CMS and were open during business hours. We
                              recorded all observations using a standard form. We conducted all site
                              visits in May 2010.
                              Updates after site visits. To account for changes in our information
                              between the time we identified our study population and the dates of
                              our site visits, we requested address updates and changes in enrollment
                              status from CMS for all CORFs that we found to be nonoperational.



    OEI-05-10-00090           S O U T H F L O R I D A M E D I C A R E C O M P R E H E N S I V E O U T PAT I E N T R E H A B I L I TAT I O N FA C I L I T I E S   5
I   N T    R O        D   U      C T            I    O       N


                              CMS actions against nonoperational CORFs. To describe CMS actions
                              against nonoperational CORFs following our site visits, we requested
                              the results of the special enrollment project through April 2011. Along
                              with the results of the special enrollment project, we also received data
                              about routine actions that CMS took through April 2011 for these
                              nonoperational CORFs.
                              Payments to nonoperational CORFs. We used the 2010 Outpatient NCH
                              file to determine how much Medicare allowed for services reportedly
                              provided by nonoperational CORFs.
                              Analysis
                              Before analyzing our results, we removed 31 CORFs from our analysis.
                              Twenty-nine were no longer enrolled in the Medicare program at the
                              time of our site visits. We removed one CORF because we were unable
                              to complete the full site visit protocol. We removed another CORF
                              because it was closed for remodeling during the time of our visits. We
                              performed our analysis on the remaining 101 CORFs.
                              We defined “operational” as at the location on file with CMS and open
                              during business hours. We determined whether a CORF met these
                              criteria in the following manner:
                                  •        We determined that a CORF was at the location on file with
                                           CMS if it maintained a physical facility with its name clearly
                                           marked somewhere other than a building directory (e.g., a sign
                                           on or near the primary entrance to the CORF).
                                  •        We determined that a CORF was open if it was accessible to
                                           CMS and beneficiaries during regular business hours (i.e., the
                                           door was unlocked) during either of two visits on separate days.
                              CORFs that did not meet at least one criterion were considered
                              nonoperational for the purposes of this report.
                              We aggregated the results of our site visits to determine the number of
                              CORFs that (1) maintained a physical facility at the location on file with
                              CMS and (2) were open during business hours. We also categorized site
                              reviewers’ observations about what they found (e.g., a sign with a
                              different business name) at the location on file with CMS.
                              Payments to nonoperational CORFs. We calculated the total amount
                              that Medicare allowed for 2010 for CORFs that were not at the location
                              on file with CMS and for CORFs that were not open. For each CORF,
                              we also calculated the amount Medicare allowed in 2010 following our


    OEI-05-10-00090           S O U T H F L O R I D A M E D I C A R E C O M P R E H E N S I V E O U T PAT I E N T R E H A B I L I TAT I O N FA C I L I T I E S   6
I   N T    R O        D   U      C T            I    O       N


                              site visits (i.e., from the date of our last site visit through
                              December 2010).
                              Review of CMS actions against nonoperational CORFs. We reviewed
                              CMS actions against the nonoperational CORFs identified by our site
                              visits. We determined for how many CORFs CMS took each type of
                              action (e.g., prepayment review) and whether the actions resulted from
                              the special enrollment project or from routine oversight. We aggregated
                              these results to determine the number of nonoperational CORFs that
                              CMS took action against after our site visits, as well as the
                              nonoperational CORFs that had been subject to each type of action.
                              Standards
                              This study was conducted in accordance with the Quality Standards for
                              Inspection and Evaluation issued by the Council of the Inspectors
                              General on Integrity and Efficiency.




    OEI-05-10-00090           S O U T H F L O R I D A M E D I C A R E C O M P R E H E N S I V E O U T PAT I E N T R E H A B I L I TAT I O N FA C I L I T I E S   7
   F I N D I N G S



         Eighteen of the one hundred one                  Eighteen of the one hundred one
South Florida CORFs were not operational                  CORFs in South Florida were not
                                                          at the location on file with CMS or
                     were not open during business hours. Medicare allowed $2.2 million for
                     services provided by these CORFs in 2010, $450,000 of which was
                     allowed after our site visits. An additional five CORFs were open only
                     during the second visit made to their locations. We considered these
                     CORFs open for the purposes of this review.
                     Ten CORFs were not at the location on file with CMS
                     After taking into account the CORFs that submitted address updates to
                     CMS, 10 of the CORFs that we visited did not maintain a facility at the
                     location on file with CMS. Medicare allowed $1.4 million for these
                     10 CORFs in 2010.
                     As Table 1 shows, when site reviewers visited the location on file with
                     CMS, they found different businesses, unmarked office suites, and a
                     private residence with no indication that a CORF was located there. In
                     one case, site reviewers found an eviction notice posted on the door of an
                     empty CORF facility. See Photo 1 for an example of an empty storefront
                     that reviewers found at the location CMS had on file for one CORF.


                            TABLE 1                             What OIG Found at Location on File
                  Description of the
                     location on file                             Description                                                                           Count
                       with CMS for
                                                                  Sign with a different business name                                                      4
                  10 nonoperational
                             CORFs.
                                                                  No sign indicating a business name                                                       4

                                                                  Private residence with no sign indicating a CORF                                         1

                                                                  Eviction notice                                                                          1

                                                                        Total                                                                             10

                                                             Source: OIG unannounced site visits to CORFs, May 2010.




OEI-05-10-00090      S O U T H F L O R I D A M E D I C A R E C O M P R E H E N S I V E O U T PAT I E N T R E H A B I L I TAT I O N FA C I L I T I E S           8
F   I   N   D I       N G     S




          PHOTO 1
     There was no
  indication that a
        CORF was
operational at this
          location.




                            Source: OIG unannounced site visits to CORFs, May 2010.




                            Eight CORFs were not open during business hours
                            Eight CORFs maintained a visible sign at the location on file with CMS
                            but were locked during business hours on 2 separate days. Site
                            reviewers visited seven of the eight CORFs during their posted business
                            hours. The remaining CORF did not have posted business hours and
                            was visited during reasonable business hours (9 a.m. to 5 p.m.).
                            Medicare allowed $800,000 for these eight CORFs in 2010.
                            Five additional CORFs were locked during business hours on the first
                            date we visited and open on the second day. These CORFs were
                            considered open for the purposes of this report because they were open
                            on our second visit. However, these CORFs may have been open on our
                            second visit because they became aware of our review.


             CMS took action against most of the                  CMS took action against 16 of the
        nonoperational CORFs based on a special                   18 nonoperational CORFs in the
         enrollment project and routine oversight                 months after we completed our
                                                                  site visits. These actions included
                            investigation, prepayment review, and revocation. More than half of
                            these actions were because of CMS’s special enrollment project. The
                            rest were because of routine oversight activities that apply to all
                            Medicare providers. See Chart 1 for the actions that CMS took against
                            nonoperational CORFs that we identified in our site visits.

    OEI-05-10-00090         S O U T H F L O R I D A M E D I C A R E C O M P R E H E N S I V E O U T PAT I E N T R E H A B I L I TAT I O N FA C I L I T I E S   9
F   I   N   D I   N G    S




         CHART 1                                   10
      CMS actions                                  9
          against
    nonoperational                                 8

          CORFs.                                   7


                           Number of CMS Actions
                                                   6

                                                   5
                                                                                                                                                Special Enrollment Project
                                                   4                                                                                            Routine Oversight

                                                   3

                                                   2

                                                   1

                                                   0
                                                        Prepayment             Revocation                    Investigation
                                                          review


                        Source: OIG unannounced site visits to CORFs and CMS actions against CORFs, May 2010.



                        The special enrollment project resulted in actions against 10 nonoperational
                        CORFs
                        Based on the results of the special enrollment project, CMS revoked the
                        billing privileges of six nonoperational CORFs and monitored four
                        others with prepayment review. During the special enrollment project,
                        CMS conducted site visits to Medicare providers in South Florida,
                        including CORFs. As a result of this project, CMS took action against
                        10 nonoperational CORFs that may not have been identified through
                        routine oversight.
                        Actions based on the special enrollment project were not always timely.
                        For one CORF, CMS took 9 months to take action. After finding this
                        CORF to be nonoperational on two separate visits, CMS made a third
                        visit 6 months later. Another 3 months elapsed before CMS put the
                        provider on prepayment review. Similarly, CMS took almost 7 months
                        to revoke another CORF’s billing privileges. CMS found this CORF to
                        be nonoperational on two separate visits. Five months elapsed before
                        CMS returned for a third site visit and found “for rent” signs posted at
                        the location. Another 2 months elapsed before CMS finalized the
                        revocation of this CORF’s billing privileges.




    OEI-05-10-00090     S O U T H F L O R I D A M E D I C A R E C O M P R E H E N S I V E O U T PAT I E N T R E H A B I L I TAT I O N FA C I L I T I E S                     10
F   I   N   D I       N G     S


                            Routine CMS oversight resulted in actions against six nonoperational
                            CORFs
                            CMS revoked the billing privileges of three CORFs, monitored
                            two others with prepayment review, and investigated another as a
                            result of routine oversight. CMS revoked the billing privileges of three
                            CORFs because they were found to be nonoperational during site visits
                            that were not related to the special enrollment project.
                            CMS took no action against two nonoperational CORFs
                            After the OIG site visits, CMS visited these two CORFs as part of the
                            special enrollment project and found them to be operational. Almost a
                            year later, CMS reported that prepayment review actions were pending
                            for these CORFs. These actions were based on fraud indicators
                            unrelated to the site visits.




    OEI-05-10-00090         S O U T H F L O R I D A M E D I C A R E C O M P R E H E N S I V E O U T PAT I E N T R E H A B I L I TAT I O N FA C I L I T I E S   11
R   E C   O M M E N D A T I O N S
       R E C O M M E N D A T I O N S



                      Eighteen of the one hundred one CORFs in South Florida were not
                      operational. Ten of these CORFs were not found at the location on file
                      with CMS, and eight were not open during business hours.
                      CMS also identified nonoperational CORFs in South Florida and was
                      able to remove or monitor most of them. CMS actions included
                      revocation of billing privileges, prepayment review, and investigation.
                      By using a special enrollment project, CMS was able to identify and
                      take action against more CORFs than it would have using routine
                      oversight alone. However, in some cases, CMS took several months to
                      take action against CORFs after identifying them as nonoperational.
                      Further, CMS was unable to prevent these CORFs from initially
                      enrolling in the Medicare program.
                      Given the number of CORFs that OIG and CMS found to be
                      nonoperational, CMS should continue its attempts to protect the
                      integrity of the Medicare program and beneficiaries from potentially
                      fraudulent CORFs. Therefore, we recommend that CMS:
                      Periodically conduct unannounced site visits to CORFs
                      CMS advocates the use of unannounced postenrollment site visits to
                      determine whether providers are operational. Notably, CMS used
                      unannounced site visits as a key component of its special enrollment
                      project. Continuing to periodically conduct nationwide unannounced
                      site visits to CORFs would enable CMS to identify and remove
                      nonoperational CORFs from the program and potentially reduce
                      erroneous Medicare payments. CMS could focus unannounced site
                      visits in high-risk areas or base them on fraud-risk assessments.
                      Use additional program safeguards for CORFs
                      CMS should use other program safeguards to prevent potentially
                      nonoperational CORFs from enrolling in the Medicare program and to
                      monitor existing CORFs. Such safeguards may include payment
                      suspensions and a moratorium on the enrollment of new CORFs.


                      AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                      RESPONSE
                      CMS concurred with our recommendations. In response to our first
                      recommendation, CMS stated that it currently conducts unannounced
                      enrollment and revalidation site visits to CORFs and that it plans to
                      increase the frequency of unannounced, out-of-cycle site visits to

    OEI-05-10-00090   S O U T H F L O R I D A M E D I C A R E C O M P R E H E N S I V E O U T PAT I E N T R E H A B I L I TAT I O N FA C I L I T I E S   12
R   E C     O    M    M   E     N D            A T           I    O       N       S


                          CORFs. CMS also plans to compare CORF enrollment information with
                          public records to identify potential changes to enrollment information
                          that would warrant further investigation. In response to our second
                          recommendation, CMS stated that it will continue to take
                          administrative actions, as appropriate. CMS stated that these actions
                          may include, but are not limited to, prepayment review, auto-deny edits,
                          payment suspensions, and revocations. CMS also stated that it had
                          referred certain providers to OIG for investigation. We did not make
                          any changes to the report based on CMS’s comments. For the full text
                          of CMS’s comments, see Appendix B.




    OEI-05-10-00090       S O U T H F L O R I D A M E D I C A R E C O M P R E H E N S I V E O U T PAT I E N T R E H A B I L I TAT I O N FA C I L I T I E S   13
      A P P E N D I X ~ A

                  Detailed Methodology
                  We conducted unannounced site visits to all Comprehensive Outpatient
                  Rehabilitation Facilities (CORF) in three Core Based Statistical Areas
                  (CBSA) in Florida: the Miami–Miami Beach–Kendall CBSA, the
                  Fort Lauderdale–Pompano Beach–Deerfield Beach CBSA, and the
                  West Palm Beach–Boca Raton–Boynton Beach CBSA. We refer to these
                  CBSAs collectively as South Florida. We determined whether each
                  CORF was at the location on file with the Centers for Medicare &
                  Medicaid Services (CMS) and was open during business hours. We then
                  reviewed documentation about actions that CMS took against the
                  noncompliant CORFs and determined how much money Medicare
                  allowed for services reportedly provided by these CORFs in 2010.
                  Scope
                  To concentrate our visits on CORFs with recent activity in the Medicare
                  program, we focused our review on CORFs that submitted claims for
                  Medicare payment in 2009. At the time we developed our study
                  population, data on claims from 2009 were the most recent available.
                  Data Sources and Data Collection
                  Identifying CORF locations. We identified CORFs that submitted claims
                  in 2009 using the bill type and provider identification numbers
                  (provider ID) fields in the 2009 Outpatient National Claims History
                  (NCH) file. We counted each provider ID that had claims with bill type
                  75 as a CORF. 20 We then used the State code from the NCH file to
                  identify all CORFs in Florida.
                  Using two sources, we located an address for each CORF in Florida.
                  Our primary source for CORF addresses was the practice location field
                  from the Provider Enrollment, Chain, and Ownership System
                  (PECOS). 21 Most CORFs have enrollment information, such as practice
                  locations, stored in PECOS. 22 When a CORF did not have an address
                  available in PECOS, we requested this information from CMS.




                      20 Bill type is a variable used to describe the type of Medicare facility that delivered the
                  services billed.
                      21 PECOS is the system of record for Medicare provider enrollment information. PECOS

                  is populated based on the initial provider enrollment application and updated any time a
                  provider submits an updated application to CMS.
                    22 A CORF that enrolled before 2004 and has not submitted an updated application may

                  not have an enrollment record in PECOS.



OEI-05-10-00090   S O U T H F L O R I D A M E D I C A R E C O M P R E H E N S I V E O U T PAT I E N T R E H A B I L I TAT I O N FA C I L I T I E S   14
A   P P     E   N     D I      X      ~      A


                            Finally, we matched the ZIP Code from each address to the ZIP Codes
                            corresponding to each CBSA to determine whether the address was
                            located in one of the three South Florida CBSAs. This process resulted
                            in 132 CORFs with addresses in South Florida.
                            Site visits to CORFs. We conducted unannounced site visits to these
                            132 CORFs to determine whether they were at the location on file with
                            CMS and were open during business hours. We recorded all
                            observations using a standard form. We conducted all site visits from
                            May 17 through May 28, 2010.
                            We designed our site visit protocol to ensure that we gave providers the
                            benefit of the doubt when determining whether they were operational.
                            For example:
                                ●         All visits to CORFs were made during posted business hours if
                                          hours were posted or during reasonable business hours (9 a.m.
                                          to 5 p.m.) if none were posted.
                                ●         If a CORF was locked, we conducted a second visit to that
                                          location on a different day. We considered CORFs to be open if
                                          they were open on either the first visit or (if applicable) the
                                          second visit.
                                ●         When the building at a CORF location on file with CMS was a
                                          multisuite office building, site reviewers searched for the CORF
                                          by name as well as by suite number. We considered the CORF
                                          to be at the location on file with CMS if site reviewers could find
                                          it in any suite or office space in the building.
                                ●         If a CORF had a sign posted indicating that visitors should ring
                                          a buzzer or doorbell to enter the facility, site reviewers did so. If
                                          the door was opened (e.g., someone came to the door or the lock
                                          was released), we considered the CORF to be open.
                                ●         If a CORF had a sign posted indicating that it was available by
                                          appointment only, a site reviewer attempted to make an
                                          appointment for services with that CORF (i.e., called the phone
                                          number listed on the sign). If the site reviewer was able to
                                          make an appointment, we considered the CORF to be open.
                                ●         If we found a different business name at the CORF location on
                                          file with CMS, we attempted to determine if the CORF we were
                                          looking for was operating under the name we found. First, we
                                          requested from CMS all names for CORFs that we did not find


    OEI-05-10-00090         S O U T H F L O R I D A M E D I C A R E C O M P R E H E N S I V E O U T PAT I E N T R E H A B I L I TAT I O N FA C I L I T I E S   15
A   P P    E      N   D I       X      ~     A

                                    and reviewed this information to ensure that we captured all
                                    possible aliases. Second, as a final check, we reviewed public
                                    Web sites, including the National Provider Identifier registry, to
                                    determine whether the CORF we were looking for could be
                                    operating under the name we found. If we were able to connect
                                    the two names, we categorized the CORF as being at the
                                    location on file with CMS.
                       CMS actions against nonoperational CORFs. Data received from the
                       South Florida High Risk Enrollment Project (special enrollment project)
                       through December 2010 included:
                            ●       administrative actions taken against nonoperational CORFs,
                            ●       the source of these administrative actions (i.e., special
                                    enrollment project activity or routine oversight),
                            ●       the effective dates of these actions,
                            ●       the dates that CMS finalized these actions, and
                            ●       the dates and results of all of CMS’s site visits and in-depth
                                    investigations related to the special enrollment project.
                       Analysis
                       Updates after site visits. CMS indicated that it deactivated the billing
                       privileges of 26 CORFs and revoked the billing privileges of 3 others
                       before the dates of our site visits. We removed these 29 CORFs from
                       our analysis.




OEI-05-10-00090        S O U T H F L O R I D A M E D I C A R E C O M P R E H E N S I V E O U T PAT I E N T R E H A B I L I TAT I O N FA C I L I T I E S   16
     A P PEN D                                   x         B



     Agency Comments



        .,..t>J
             .
      ('" . t..
                   ,CJ.... -


                                 DEPARTMENT OF HEALTH & HUMAN SERVICES                                    Centers for Medicare & Medicaid Services


        ,   .....<tm                                                                                      Administrator
                                                                                                          Washington, OC 20201




                           DATE:
                                             OCT 1 22011i
                               TO:           Daniel R. Levinson
                                             Inspector General
                                                                        /S/
                               FROM:         Donald M. Berwick, M.D.
                                             Administrator

                               SUBJECT:      Office of Inspector General (OlG) Draft Report: "South Florida Medicare
                                             Comprehensive Outpatient Rehabilitation Facilities" (OEl-OS-! 0-00090)


                               'Ine Centers for Medicare & Medicaid Services (CMS) appreciates the opportunity to review and
                               comment on the Officc oflnspector General (OlG) draft report entitled. "South Florida Medicare
                               Comprehensive Outpatient Rehabilitation Facilities." The purpose of this report is two-fold.
                                First, it seeks to determine whcther Comprehensive Outpatient Rehabilitation Facilities (CORFs)
                                in South Florida were operational (Le., at the location on file with CMS and open during
                                business hours). Secondly, it describes CMS actions against CORFs that were not operational.

                               CORPs provide multidisciplinary rehabilitation services at a single location. According to OlO's
                               report, Medicare allowed approximately $70 million for CORP services for almost 40,000
                               beneficiaries in 2010. Of this, more than $22 million was for claims by CORPs in South Florida.

                               The Affordable Care Act provides important new tools for CMS to use to strengthen the integrity
                               of the Medicare, Medicaid, and CHIP programs, including enhanced provider and supplier
                               screening requirements, the authority to suspend payments to providers/suppliers pending
                               investigations of credible allegations of mud, and the authority to impose enrollment moratoria
                               on new providers and suppliers when necessary to combat fraud and abuse.

                               CORF services have historically been vulnerable to abuse. To combat this abuse, CMS is taking
                               additional steps to address potential vulnerabilities in the enrollment and claims payment process
                               for this supplier group, using the authorities granted under the Affordable Care Act. This
                               includes continuing to conduct unannounced site visits to CORFs and exploring options to use
                               payment suspensions in conjuJlction with revocation actions for providers/suppliers detennined
                               to be non-operational.

                               According to the OlG report. CMS took action against most of the non-operational CORPs based
                               on a special enrollment project and routine oversight. CMS believes it took the appropriate
                               action on all non-operational CORFs identified by OlG in this study. eMS' definition oftaking
                               action includes, but is not limited to, conducting its own unannounced site visit and taking the




OEI·05·10 · 00090                    SOUTH FLORIDA MEDICARE COMPREHENSIVE OUTPATIENT REHABILITATION FACILITIES                                       17
A   P P     E   N     D I      X            ~           B




    OEI-05-10-00090         S O U T H F L O R I D A M E D I C A R E C O M P R E H E N S I V E O U T PAT I E N T R E H A B I L I TAT I O N FA C I L I T I E S   18
A   P P     E   N     D I      X            ~           B




    OEI-05-10-00090         S O U T H F L O R I D A M E D I C A R E C O M P R E H E N S I V E O U T PAT I E N T R E H A B I L I TAT I O N FA C I L I T I E S   19
   A C K N O W L E D G M E N T S




                  This report was prepared under the direction of Ann Maxwell, Regional
                  Inspector General for Evaluation and Inspections in the Chicago
                  regional office, and Thomas Komaniecki, Deputy Regional Inspector
                  General.
                  Laura Kordish served as the team leader for this study, and Lisa Minich
                  and Mara Werner served as lead analysts.
                  We would also like to acknowledge the contributions of Office of
                  Evaluation and Inspections central and regional offices. Contributing
                  staff from these offices include Melissa Baker, Tim Chettiath,
                  Ben Dieterich, Kevin Farber, Robert Gibbons, Jennifer Gist,
                  Rose Goldberg, Melissa Hafner, Scott Horning, Maria Maddaloni,
                  Dan Mallinson, Kevin Manley, Conswelia McCourt, Beth McDowell,
                  Jeremy Moore, Christine Moundas, Brian Pattison, Margo Rodriguez,
                  Megan Ruhnke, Rachel Siman, Arianne Spaccarelli, Holly Williams, and
                  Chetra Yean.




OEI-05-10-00090   S O U T H F L O R I D A M E D I C A R E C O M P R E H E N S I V E O U T PAT I E N T R E H A B I L I TAT I O N FA C I L I T I E S   20
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
